No. 20-1199

In the

Supreme Court of the United States
♦
STUDENTS FOR FAIR ADMISSIONS, INC.
Petitioner,
v.
PRESIDENT & FELLOWS OF HARVARD COLLEGE,
Respondent.
♦
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

♦
BRIEF OF AMICI CURIAE
FORMER FEDERAL OFFICIALS
OF THE DEPARTMENT OF EDUCATION’S OFFICE
FOR CIVIL RIGHTS IN SUPPORT OF PETITIONER

♦
William E. Trachman
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
wtrachman@mslegal.org
March 31, 2021

Attorney for Amicus Curiae

i
QUESTION PRESENTED
1. Should this Court overrule Grutter v.
Bollinger, 539 U.S. 306 (2003), and hold that
institutions of higher education cannot use race as a
factor in admissions?
2. Title VI of the Civil Rights Act bans race-based
admissions that, if done by a public university, would
violate the Equal Protection Clause. Gratz v.
Bollinger, 539 U.S. 244, 276 n.23 (2003). Is Harvard
violating Title VI by penalizing Asian-American
applicants,
engaging
in
racial
balancing,
overemphasizing race, and rejecting workable raceneutral alternatives?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ................................

i

TABLE OF AUTHORITIES ..............................

iii

IDENTITY AND INTEREST
OF AMICI CURIAE ...........................................

1

SUMMARY OF THE ARGUMENT ..................

4

ARGUMENT ......................................................

6

CONCLUSION ...................................................

29

iii
TABLE OF AUTHORITIES
CASES

PAGE(S)

Adarand Constructors v. Pena,
515 U.S. 200 (1995) ...............................

12

Fisher v. University of Texas at Austin
(Fisher I),
570 U.S., 133 S.Ct.
2433 (2013) .............................................
................................................................

6, 11,
12, 13

Fisher v. University of Texas at Austin
(Fisher II),
136 S.Ct. 2198 (2016) ............................. 6, 10, 11
Gratz v. Bollinger,
539 U.S. 244 (2003) ................................ 1, 8, 15
Grutter v. Bollinger,
539 U.S. 306 (2003) ................................

1, 6, 8

Marks v. United States,
430 U.S. 188 (1977) ................................

9

Parents Involved in Cmty. Sch. v. Seattle
Sch. Dist. No.,
551 U.S. 701 (2007) ................................

8, 9

Students for Fair Admissions, Inc. v.
President and Fellow of Harvard
College,
397 F.Supp.3d 126 (D. Mass. 2019).......

11

iv
Students for Fair Admissions, Inc. v.
President and Fellows of Harvard
College,
980 F.3d 157 (2020)................................

6, 8

STATUTES
16 US.C. § 1681 ..............................................

2

20 U.S.C. § 7905 .............................................

2

29 U.S.C. § 701 ...............................................

2

42 U.S.C. § 6101 .............................................

2

42 U.S.C. § 12131 ...........................................

2

42 U.S.C § 2000d ............................................

2

RULES
Supreme Court Rule 37.2(a) ..........................

1

Supreme Court Rule 37.6 ..............................

1

OTHER AUTHORITIES
Advancing Racial Equity and Support for
Underserved Communities Through
the Federal Government,
86 Fed. Reg. 7009 (Jan. 25, 2021) .........

18

Executive Order 13985 ..................................

18, 23

1
IDENTITY AND INTEREST OF
AMICUS CURIAE 1
Amici are former officials of the U.S. Department
of Education’s Office for Civil Rights, having served
under former Secretary of Education Betsy DeVos,
and are interested in the lawful and appropriate
enforcement of Title VI of the Civil Rights Act of 1964.
Kenneth L. Marcus is the former Assistant
Secretary for Civil Rights, having served from 2018 to
2020.
Kimberly M. Richey is the former Principal
Deputy Assistant Secretary for Civil Rights, having
served from 2018 to 2021, including as Acting
Assistant Secretary for Civil Rights for parts of 2020
and 2021.
Candice Jackson is the former Deputy
Assistant Secretary for Strategic Operations and
Outreach, having served from 2017 to 2018, including
as Acting Assistant Secretary for Civil Rights for parts
of 2017 and 2018.

The parties were timely notified and have consented to the
filing of this amici curiae brief. See Supreme Court Rule 37.2(a).
Pursuant to Supreme Court Rule 37.6, the undersigned affirms
that no counsel for a party authored this brief in whole or in part,
and no person or entity other than amici curiae or their counsel,
made a monetary contribution specifically for the preparation or
submission of this brief.
1

2
David Tryon is a former Deputy Assistant
Secretary for Policy and Development, having served
from 2019 to 2021.
William E. Trachman is a former Deputy
Assistant Secretary for Policy and Development,
having served from 2017 to 2019, and later as Senior
Counsel from 2019 to 2021.
Christian Corrigan is a former Senior Counsel
to the Assistant Secretary in the Office for Civil
Rights, having served from 2019 to 2021.
Sarah Perry is a former Senior Counsel to the
Assistant Secretary in the Office for Civil Rights,
having served from 2020 to 2021.
The Department of Education’s Office for Civil
Rights (“OCR”) functions as an administrative law
enforcement agency. OCR has jurisdiction over nearly
all recipients of federal funds from the Department of
Education, and enforces several federal civil rights
statutes, including Title VI of the 1964 Civil Rights
Act and its implementing regulations. 42 U.S.C.
§ 2000d; 34 C.F.R. § 100, et seq. 2
As part of its enforcement authority, OCR
receives complaints from the public, and where
2 OCR also enforces Title IX of the Educations Amendments of
1972, 16 US.C. § 1681, et seq., and Section 504 of the
Rehabilitation Act, 29 U.S.C. § 701, et seq., as well as Title II of
the Americans with Disabilities Act, 42 U.S.C. § 12131, et seq.
OCR also has jurisdiction over complaints arising under the Age
Discrimination Act, 42 U.S.C. § 6101, et seq., and the Boy Scouts
of America Equal Access Act, 20 U.S.C. § 7905.

3
appropriate, investigates those complaints and brings
recipients of federal funds into compliance with Title
VI through resolution agreements or enforcement
proceedings. See, e.g., U.S. DEP’T OF EDUC.’S OFFICE
FOR CIV. RIGHTS, HOW TO FILE A COMPLAINT WITH THE
DEPARTMENT OF EDUCATION (September 2010),
https://www2.ed.gov/about/offices/list/ocr/docs/howto.
pdf; see also U.S. Dep’t of Educ. YouTube Channel,
OCR Short Webinar: How to File an OCR Complaint
(Mar.
20,
2020),
https://www.youtube.com/watch?v=BuwVa3JJE-4.
OCR also initiates its own investigations in some
instances, called Directed Investigations, and
separately, opens Compliance Reviews related to
major OCR initiatives. See U.S. DEP’T OF EDUC.
OFFICE FOR CIV. RIGHTS, CASE PROCESSING MANUAL
23
(August
26,
2020),
https://www2.ed.gov/about/offices/list/ocr/docs/ocrcpm
.pdf (describing Compliance Reviews in Section 401 of
and Directed Investigations in Section 402). 3
On January 17, 2019, for instance, OCR announced a
Compliance Review initiative on the topic of the inappropriate
use of restraint and seclusion with respect to students with
disabilities. See U.S. DEP’T OF EDUC. PRESS RELEASE, U.S.
Department of Education Announces Initiative to Address the
Inappropriate Use of Restraint and Seclusion to Protect Children
with Disabilities, Ensure Compliance with Federal Laws (Jan.
17,
2019),
https://www.ed.gov/news/press-releases/usdepartment-education-announces-initiative-addressinappropriate-use-restraint-and-seclusion-protect-childrendisabilities-ensure-compliance-federal-laws.
Similarly,
on
February 26, 2020, OCR announced a major initiative to open
Compliance Reviews on the topic of sexual assault in elementary
and secondary schools. See U.S. DEP’T OF EDUC. PRESS RELEASE,
3

4
♦
SUMMARY OF THE ARGUMENT
Existing case law regarding race-conscious
policies under Title VI has led to radically vacillating
federal
policy
guidance
and
administrative
enforcement conduct—all depending on who sits in
the Oval Office. Schools and students could be
forgiven for confusion over whether all manner of
race-conscious education policies are allowed, or
whether such policies implicate fundamental antidiscrimination principles.
The extraordinary and rapid shifts in federal
policy undermine consistency and predictability for
thousands of schools and millions of students. At the
same time, public confidence in the administration of
civil rights laws is undermined when the same body of
caselaw is read in such disparate fashion. And schools,
in particular, must confront this confusing landscape
against the backdrop of the incredibly severe
consequence of losing all federal education funds in an
OCR enforcement action. 34 C.F.R. § 100.8(c).
Before Amici’s tenure in OCR, the Obama
Administration actively encouraged schools to adopt
race-conscious policies, providing schools with
suggestions and guidelines regarding race-conscious
Secretary DeVos Announces New Civil Rights Initiative to
Combat
Sexual
Assault
in
K-12
Public
Schools,
https://www.ed.gov/news/press-releases/secretary-devosannounces-new-civil-rights-initiative-combat-sexual-assault-k12-public-schools.

5
scholarships, student retention, mentoring, and
elsewise. In 2018, OCR withdrew most of the Obamaera guidance on these topics, and in 2020 and 2021,
issued other guidance and information on the limited
ability for schools to use race under Title VI. Now,
since January 2021, the Biden Administration has
already undone much of that work, which offered
information regarding the limited legal use of race in
admissions, grading, discipline, and other arenas. In
short, existing case law on the issue of diversity has
given rise to widely divergent views of the permissible
scope of the use of race, and subjects students and
schools to legal “whiplash” on this topic. In the
meantime, many schools continue to expand their use
of race-conscious policies, sometimes under the guise
of “diversity” as an all-purpose exception to Title VI.
The fact that the exact same body of caselaw
can be used to either encourage the use of race or, on
the other hand, describe how limited the legal use of
race is, should give this Court serious concern.
Students and schools deserve to know whether they
are appropriately following guidance from Executive
Branch agencies, or in fact acting illegally.
This Court should thus grant this Petition to
further clarify whether schools can extensively use
race in numerous facets of education policy. This is
especially important now, given that the Court’s 25year admonition in Grutter v. Bollinger, 539 U.S. 306,
310 (2003), is approaching, but is itself on uncertain
ground. Compare id. at 310 (“The Court expects that
25 years from now, the use of racial preferences will
no longer be necessary to further the interest

6
approved today.”), with Students for Fair Admissions,
Inc. v. President and Fellows of Harvard College, 980
F.3d 157, 192 (2020) (“Indeed, the Supreme Court
never mentioned Grutter’s 25-year timeline in Fisher
I or Fisher II.”). Only this Court can address the
widespread uncertainty on the legality of the
increasing use of race in American schools.
ARGUMENT
I.

OCR Guidance Issued Under the Obama
Administration Encouraged Schools to Use
Race-Conscious Policies

On December 2, 2011, the Department of
Education and the Department of Justice issued a
joint “Dear Colleague” letter purporting to “explain
how educational institutions can lawfully pursue
voluntary policies to achieve diversity or avoid racial
isolation . . . .” U.S. DEP’T OF EDUC.’S OFFICE FOR CIV.
RIGHTS AND U.S. DEP’T OF JUSTICE’S OFFICE FOR CIV.
RIGHTS, GUIDANCE ON VOLUNTARY USE OF RACE TO
ACHIEVE DIVERSITY OR AVOID RACIAL ISOLATION HOW
TO FILE A COMPLAINT WITH THE DEPARTMENT OF
EDUCATION
(Dec.
2,
2011),
https://www2.ed.gov/about/offices/list/ocr/letters/colle
ague-201111.pdf. (DECEMBER 2011 DEAR COLLEAGUE
LETTER).
The Dear Colleague Letter was published with two
companion guidance documents entitled: (1) Guidance
on the Voluntary Use of Race to Achieve Diversity and
Avoid Racial Isolation in Elementary and Secondary

7
Schools, 4 and (2) Guidance on the Voluntary Use of
Race to Achieve Diversity in Postsecondary
Education. 5 (“December 2011 Documents”).
The Dear Colleague Letter stated that together,
the December 2011 Documents reviewed “three key
Supreme Court rulings on the use of race by
educational institutions.” DECEMBER 2011 DEAR
COLLEAGUE LETTER 1.
The December 2011
Documents, however, encouraged the use of race
across a broad spectrum of educational activities:
For example, the elementary and secondary
guidance discusses school districts’ options
in areas such as student assignment,
student transfers, school siting, feeder
patterns, and school zoning. Similarly, the
postsecondary guidance provides examples
of how colleges and universities can further
diversity in contexts including admissions,
pipeline
programs,
recruitment
and

U.S. DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS AND U.S. DEP’T
OF JUSTICE’S OFFICE FOR CIV. RIGHTS, GUIDANCE ON THE
VOLUNTARY USE OF RACE TO ACHIEVE DIVERSITY AND AVOID RACIAL
ISOLATION IN ELEMENTARY AND SECONDARY SCHOOLS (Dec. 2,
4

2011), https://www2.ed.gov/about/offices/list/ocr/docs/guidanceese-201111.pdf (DECEMBER 2011 ELEMENTARY AND SECONDARY
GUIDANCE).
5 U.S. DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS AND U.S. DEP’T
OF JUSTICE’S OFFICE FOR CIV. RIGHTS, GUIDANCE ON THE
VOLUNTARY USE OF RACE TO ACHIEVE DIVERSITY IN
POSTSECONDARY
EDUCATION
(Dec.
2,
2011),
https://www2.ed.gov/about/offices/list/ocr/docs/guidance-ese201111.pdf (DECEMBER 2011 POSTSECONDARY GUIDANCE).

8
outreach
and
mentoring,
tutoring,
retention, and support programs.
Id. The three cases reviewed in the December 2011
Documents were Grutter v. Bollinger, 539 U.S. 306
(2003), Gratz v. Bollinger, 539 U.S. 244 (2003), and
Parents Involved in Cmty. Sch. v. Seattle Sch. Dist.
No. 1, 551 U.S. 701 (2007). Additionally, the December
2011 Dear Colleague Letter withdrew guidance
documents issued during the Bush Administration.
See DECEMBER 2011 DEAR COLLEAGUE LETTER 1 (“This
guidance replaces August 2008 letters . . . .”). 6
Notably, the December 2011 Documents
directly equate race-conscious admissions policies
with obtaining a diversity of individual perspectives,
stating that “Interacting with students who have
different perspectives and life experiences can raise
the level of academic and social discourse both inside
and outside the classroom.” DECEMBER 2011
POSTSECONDARY GUIDANCE 1. In other words, the
December 2011 Documents suggested to schools that
race is a stand-in for having students who have
“different perspectives,” such that racial diversity
See U.S. DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS, DEAR
COLLEAGUE LETTER ON THE USE OF RACE IN POSTSECONDARY
STUDENT
ADMISSIONS
(Aug.
28,
2008),
https://www2.ed.gov/about/offices/list/ocr/letters/raceadmissionp
se.html (withdrawn on December 2, 2011, republished on July 3,
2018); U.S. DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS, DEAR
COLLEAGUE LETTER ON THE USE OF RACE IN ASSIGNING STUDENTS
TO ELEMENTARY AND SECONDARY SCHOOLS (Aug. 28, 2008),
https://www2.ed.gov/about/offices/list/ocr/letters/raceassignmen
tese.html (withdrawn on December 2, 2011, republished on July
3, 2018).
6

9
necessarily entailed actual diversity of perspective
and life experiences.
Additionally, the documents drew heavily from
Justice Kennedy’s concurring opinion in Parents
Involved, 551 U.S. at 782 (Kennedy, J., concurring)
handpicking elements from that concurrence and
joining them with the views of the dissenters to offer
points of law. See 2011 ELEMENTARY AND SECONDARY
GUIDANCE 5 (“Although Parents Involved ultimately
was decided on other grounds, a majority of Justices
expressed the view that schools must have flexibility
in designing policies that endeavor to achieve
diversity or avoid racial isolation, and, at least where
those policies do not classify individual students by
race, can do so without triggering strict scrutiny.”). 7
To drive home the point, the December 2011
Documents prognosticated about what this Court
might do if faced with a case where a school adopted a
host of race-conscious policies that stopped just short
of making decisions specifically based on the race of
individual students:
Thus, although there was no single majority
opinion on this point, Parents Involved
demonstrates that a majority of the
Supreme Court would be “unlikely” to apply
7 This Court has specifically cautioned against this sort of “vote
tallying” of concurrences and dissents. See, e.g., Marks v. United
States, 430 U.S. 188, 193 (1977) (when the Court is fragmented,
“the holding of the Court may be viewed as the position taken by
those Members who concurred in the judgments on the
narrowest grounds.”).

10
strict scrutiny to generalized considerations
of race that do not take account of the race
of individual students.
2011 ELEMENTARY AND SECONDARY GUIDANCE 5. This
analysis, although it appeared in the Elementary and
Secondary Guidance document, was not clearly
limited to that context. And, although the guidance
was reaffirmed as operative by OCR as late as 2016, 8
it was in tension with Fisher II, which suggested that
“race-neutral” plans adopted for race-conscious
reasons are on just as shaky ground as outright racial
preferences. In Fisher II, this Court held:
As an initial matter, petitioner overlooks
the fact that the Top Ten Percent Plan,
though facially neutral, cannot be
understood apart from its basic purpose,
which is to boost minority enrollment.
Percentage plans are “adopted with racially
segregated neighborhoods and schools front
and center stage.” Fisher I, 570 U.S., 133 S.
Ct., at 2433 (Ginsburg, J., dissenting). “It is
race consciousness, not blindness to race,
that drives such plans.” [Id.] Consequently,
petitioner cannot assert simply that
increasing the University’s reliance on a

See U.S. DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS, QUESTIONS
ANSWERS ABOUT FISHER V. UNIVERSITY OF TEXAS AT AUSTIN
II
2
(Sept.
30,
2016)
(Question
1),
https://www2.ed.gov/about/offices/list/ocr/docs/qa-fisher-ii201609.pdf
8

AND

11
percentage plan would make its admissions
policy more race neutral.
Fisher v. University of Texas at Austin (“Fisher II”),
136 S. Ct. 2198, 2432–33 (2016) (emphasis added); see
also Students for Fair Admissions, Inc. v. President
and Fellow of Harvard College, 397 F. Supp. 3d 126,
200–01 (D. Mass. 2019) (“[P]etitioner cannot assert
simply that increasing the University’s reliance on a
percentage plan would make its admissions policy
more race neutral. Here, just as in Fisher II, the Court
is not persuaded that such a plan would actually be
more race neutral.”) (internal quotation marks
omitted).
Moreover, in the December 2011 Documents, the
Department cited Justice Kennedy’s concurrence in
Parents Involved for the proposition that schools are
entitled to consider the racial impact of their decisions
on diversity and racial isolation, but only so long as
those considerations are not in furtherance of an
invidious
purpose.
See
DECEMBER
2011
POSTSECONDARY GUIDANCE 5, n.11 (“[L]eeway to
devise race-conscious measures to achieve diversity or
avoid racial isolation extends only to circumstances
where entities pursue the goal of bringing together
students of diverse backgrounds and races.”) (internal
quotation
marks
omitted);
DECEMBER 2011
ELEMENTARY AND SECONDARY GUIDANCE 5, n.11
(same).
Thus, during the Obama Administration, OCR
relied on Justice Kennedy’s concurrence for the
proposition that some “good” race consciousness was

12
permitted, and not subject to strict scrutiny. This
position, however, is in deep tension with other
longstanding precedents. See Adarand Constructors v.
Pena, 515 U.S. 200, 226 (1995) (“[D]espite the surface
appeal of holding ‘benign’ racial classifications to a
lower standard, it may not always be clear that a socalled preference is in fact benign. More than good
motives should be required when government seeks to
allocate its resources by way of an explicit racial
classification system.”) (internal quotation marks and
citations omitted); see also Fisher v. University of
Texas at Austin (“Fisher I”), 570 U.S. 297, 328 (2013)
(Thomas, J., concurring) (“The worst forms of racial
discrimination in this Nation have always been
accompanied by straight-faced representations that
discrimination helped minorities.”).
In addition to the December 2011 Documents,
the Department of Education and Department of
Justice later issued joint guidance after Fisher I. U.S.
DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS AND U.S.
DEP’T OF JUSTICE’S OFFICE FOR CIV. RIGHTS,
QUESTIONS AND ANSWERS ABOUT FISHER V.
UNIVERSITY OF TEXAS AT AUSTIN (Sept. 27, 2013),
https://www2.ed.gov/about/offices/list/ocr/docs/qafisher-ii-201609.pdf. This document reiterated in full
the Departments’ earlier guidance, id. at 3, but also
characterized this Court’s decision in Fisher I as an
extremely narrow holding, which applied essentially
only to admissions policies. The Departments
suggested ways that schools could generate “racial
diversity” by sidestepping this Court’s precedents. Id.
at 2. Specifically, the Departments stated: “The
Court’s opinion does not address a college or

13
university’s ability to promote diversity through other
efforts that do not consider an individual’s race in
admissions, such as engaging in targeted outreach
and recruitment or partnering with high schools
through pipelines programs to promote student body
diversity.” Id. at 2 (Answer 2). 9
II.

Between 2017 and 2021, OCR Withdrew
Prior Guidance and Published New
Material.

After reviewing and thoroughly considering the
guidance documents published between 2011 and
2016 on the topic of race-conscious policies, the
Department of Justice and the Department of
Education opted to withdraw them all. On July 3,
2018, the Departments wrote in a Dear Colleague
Letter: “The Departments have reviewed the
documents and have concluded that they advocate
policy preferences and positions beyond the

Other policy guidance documents on the topic of race
consciousness issued during the Obama Administration
included: (1) U.S. DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS AND
U.S. DEP’T OF JUSTICE’S OFFICE FOR CIV. RIGHTS, DEAR
COLLEAGUE LETTER ON THE VOLUNTARY USE OF RACE TO ACHIEVE
DIVERSITY IN HIGHER EDUCATION AFTER FISHER V. UNIVERSITY
TEXAS
AT
AUSTIN
(Sept.
27,
2013),
OF
https://www2.ed.gov/about/offices/list/ocr/letters/colleague201309.pdf; and (2) U.S. DEP’T OF EDUC.’S OFFICE FOR CIV.
RIGHTS AND U.S. DEP’T OF JUSTICE’S OFFICE FOR CIV. RIGHTS,
DEAR COLLEAGUE LETTER ON THE SUPREME COURT RULING IN
SCHUETTE V. COALITION TO DEFEND AFFIRMATIVE ACTION (May 6,
2014),
https://www2.ed.gov/about/offices/list/ocr/letters/colleague201405-schuette-guidance.pdf.
9

14
requirements of the Constitution, Title IV, and Title
VI.” 10
Schools continued to struggle, however, with
issues of race during Amici’s tenure. In 2020, for
instance, schools were confronted with the COVD-19
pandemic, which caused many institutions to cease inperson instruction. As schools began reopening their
physical spaces, OCR received reports that schools
would re-open specifically by allowing students of
certain racial demographics to return first. OCR was
forced to respond to these troubling reports as part of
its public-facing policy guidance. U.S. DEP’T OF
EDUC.’S OFFICE FOR CIV. RIGHTS, QUESTIONS AND
ANSWERS FOR K-12 PUBLIC SCHOOLS IN THE CURRENT
COVID-19
ENVIRONMENT
(Sept.
28,
2020),
https://www2.ed.gov/about/offices/list/ocr/docs/qacovid-20200928.pdf. In one document, OCR answered
the following question:
Question 1:
As school districts phase in the use of
physical facilities and in-person instruction
as a part of their reopening plans, may they
prioritize students’ return to in-person

U.S. DEP’T OF EDUC.’S OFFICE FOR CIV. RIGHTS AND U.S. DEP’T
OF JUSTICE’S OFFICE FOR CIV. RIGHTS, UPDATES TO DEPARTMENT
OF EDUCATION AND DEPARTMENT OF JUSTICE GUIDANCE ON
TITLE VI (July 3, 2018),
10

https://www2.ed.gov/about/offices/list/ocr/letters/colleague-titlevi-201807.pdf

15
instruction based on their race, color, or
national origin?
Answer:
No. A reopening plan—or any school
policy—that prioritizes, otherwise gives
preference to, or limits programs, supports
or services to students based on their race,
color, or national origin—regardless of how
that plan is formulated—would likely
violate Title VI of the Civil Rights of 1964.
Id. at 1 (citing Gratz, 539 U.S. at 275). Apart from
formal policy guidance, OCR’s other public-facing
documents describe some of the cases that it handled
during the period between 2017 and 2021. For
instance, in a webinar released on January 19, 2021,
OCR described the following cases:
The first complaint involved two Kentucky
Department of Education scholarship
programs.
These
programs
were
administered in a way that restricted the
awards to members of certain racial groups.
OCR found that the rationale offered—
which was increasing the number of
minority teachers, the need for minority role
models, and remedying past segregation—
were insufficient to satisfy the compelling
interest prong under Title VI, because the
diversity sought was not broader than mere
racial diversity. The school’s rationale,
therefore, was not a compelling interest that

16
justified the use of race by an educational
institution. The Kentucky Department of
Education voluntarily agreed to discontinue
the program in order to comply with Title
VI.
The second complaint also involved the use
of
race
in
awarding
scholarships.
Washington University in St. Louis
operated a racially exclusive scholarship
program, which was open only to African
American students. After the complaint was
filed with OCR, the University voluntarily
agreed to end the program. In the resolution
with OCR, the University agreed to develop
a plan and a proposed timeline for ensuring
that the program and all race-restricted
financial aid programs administered by the
University, or administered on behalf of the
University, would be revised to ensure that
students were eligible to compete for such
programs without regard to race, color, or
national origin.
In the third complaint, OCR found that even
though Texas Tech University Health
Sciences Center had a compelling interest in
a diverse student body, it had failed the
“narrowly tailored” requirement of the strict
scrutiny test. Although the school had
considered race as only one factor in its
individual consideration of applicants, it
had not documented when and how it used
race as a factor, or the necessity for the

17
continued use of such preferences, or
whether workable race-neutral alternatives
would be as effective in achieving similar
levels of diversity.
OCR’s investigation into the use of race at
Texas Tech University Health Sciences
Center illustrates the need for a school to
narrowly tailor the use of race as a factor,
including determining whether the school
can reach its interest in diversity through
non-racial classifications and documenting
its efforts.
…
These cases illustrate that a school’s use of
race in educational settings must meet the
high standard of strict scrutiny under Title
VI. If a school’s race-based classification
can’t meet this standard, OCR will require
that the school end that classification, since
it violates Title VI’s prohibition against
discrimination on the basis of race.
U.S. DEP’T OF EDUC., OCR WEBINAR: USE OF RACE IN
POSTSECONDARY ADMISSIONS 3–4 (Jan. 19, 2021)
(Transcript),
https://www2.ed.gov/about/offices/list/ocr/docs/ocr-tviwebinar-urpsa.pdf.
Despite the fact that this material was
descriptive in nature, and echoed long-established
caselaw on the use of race, Biden Administration

18
appointees in OCR swiftly withdrew it after January
20, 2021. Now, the material is flagged with a warning
that it is “ARCHIVED AND NOT FOR RELIANCE,”
based on the claim that it “expresses policy that is
inconsistent in many respects with Executive Order
13985 on Advancing Racial Equity and Support for
Underserved Communities through the Federal
Government.” 11
Are broad race restrictions on scholarships
permissible? May schools use race as a factor in
admissions indefinitely, without considering whether
they may reach their goals without resort to race
consciousness? Now that this material has been
withdrawn, schools are left to wonder entirely
whether OCR would make the same case findings
now, as OCR would have before.
In another webinar posted on January 19, 2021,
OCR offered several statements advising schools of
basic legal propositions pursuant to Title VI. OCR
noted:
Unfortunately, OCR is aware of recent
concerning reports that schools across the
country are discriminating on the basis of
EXECUTIVE ORDER 13985, ADVANCING RACIAL EQUITY AND
SUPPORT FOR UNDERSERVED COMMUNITIES THROUGH THE
FEDERAL GOVERNMENT, 86 Fed. Reg. 7009 (Jan. 25, 2021),
https://www.govinfo.gov/content/pkg/FR-2021-01-25/pdf/202101753.pdf. The Webinar Transcript also states that it was been
withdrawn because it was issued without “the review required
under the Department’s Rulemaking and Guidance Procedures,”
although a webinar describing recent OCR cases is neither policy
guidance nor an agency rule.
11

19
race in different ways. Sometimes, these
reports have involved schools’ purported
efforts to promote diversity and equity
among students, but are nevertheless
prohibited because they violate Title VI.
OCR offers this video to highlight how these
and other examples may create Title VI
violations.
U.S. DEP’T OF EDUC., OCR WEBINAR: RACIALLY
EXCLUSIVE PRACTICES AND TITLE VI 1 (Jan. 19, 2021),
https://www2.ed.gov/about/offices/list/ocr/docs/ocr-tviwebinar-reptvi.pdf. The Webinar offered several
examples of diversity, equity, and inclusion programs
that run afoul of Title VI:
For instance, schools may not designate
certain housing or dormitories only for
students of a specific race, or exclude
students of a particular race or races from
such housing.
Similarly,
schools may
not
create
designated “safe spaces” that admit or
exclude individuals on the basis of race.
Also, since the Supreme Court’s landmark
1954 decision in Brown v. Board of
Education, schools have been barred from
segregating students according to race in
classes, seminars, lectures, trainings,
athletics,
clubs,
orientations,
award
ceremonies, graduations, or other meetings.

20
This includes, of course, segregation that
occurs in a virtual or online format as well.
At the same time, schools also may not offer
counseling, mentoring, liaisons, alumni
networking, or similar assistance to
students in a way that favors or excludes
individuals on the basis of race.
Now let’s discuss assignments and grading
policies. Schools may not use race when
administering their academic programs. For
example, neither schools nor instructors
may have students participate or complete
assignments on the basis of their race, such
as assigning different work to students,
because of their race, or assigning certain
grades to students on the basis of race.
Schools are also not permitted to ask that
certain students engage with the class in a
specific manner, based on race. Similarly, it
is improper to give students of a particular
race extra time or resources, such as the use
of notes or textbooks, to complete an
assignment. Schools also may not grade
students differently or apply different
grading criteria to students based on race.
Third, schools may not treat student
organizations differently based on the race
of their members. For example, a school may
not refuse to recognize a student
organization based on the actual or
perceived race of its members, nor may a

21
school advertise that it will grant lower
registration fees to organizations on the
basis of race.
Id. at 1–2. In addition to these statements, OCR once
again addressed reports that schools were drafting reopening plans that would allow students back on
campus at certain intervals based on their race. OCR
stated in the same webinar:
Fourth, OCR is aware that some schools
may be considering prioritizing the return of
students to school based on impermissible
categories, such as race. A COVID-19
reopening plan—or any school policy—that
prioritizes, otherwise gives preference to, or
limits programs, supports or services to
students based on their race, color, or
national origin—regardless of how that plan
is formulated—will generally violate Title
VI.
Id. at 2. Separately, the webinar addressed troubling
complaints that schools were using a curriculum that
separated students by race and described racial
demographic
groups
as
having
particular
characteristics. OCR noted:
We also want to address the use of
curriculum, training materials, or classes
that are based on racial classifications or
racial stereotypes of individuals solely
based on their race. In some cases, these
materials may violate Title VI because they

22
could constitute racial harassment, or
require teachers to engage in activities that
result in different treatment of students on
the basis of race.
One example that might violate Title VI is
advocating a position that a particular race
is collectively guilty of misconduct, or
advocating a position that a particular race
or something about that race is negative or
evil. Title VI might also be violated if part of
a curriculum instructs students that
members of a particular race or racial
identity pose specific dangers to other
individuals, or if it advocates or forces
members of certain races to deconstruct or
confront their racial identities. For instance,
a school may not advocate that students
adopt specific beliefs based on their race,
such as urging that white students be white
without signing on to whiteness. These sorts
of exercises would also be impermissible if
used in the context of ascribing specific
characteristics or qualities to all members of
other races.
In the same vein, training which is designed
to separate individuals by race, or pressure
members of a certain race to repudiate or
“recover from” their race, raises the same
Title VI issues. This includes instructing
members of a particular race or races that
they must “re-wire” themselves, or
segregating students or administrators in a

23
professional development training into
groups on the basis of race, or holding
cabinet meetings that similarly segregate
participants on the basis of race.
Id. at 2–3. Since January 20, 2021, however, Biden
Administration officials in OCR have once again
flagged this document with a warning that it is
“ARCHIVED AND NOT FOR RELIANCE,” based on
Executive Order 13985. See supra, n.11.
Is prioritizing the return of students to in-person
learning based on race legal, under notions of equity
and diversity? What about separating students or
staff by race for training purposes? As Amici have
shown above, it depends on who is reading the
Supreme Court’s caselaw in this area.
III. Since January 20, 2021, the Biden
Administration
has
Suspended
PreExisting Investigations Opened During
Amici’s Tenure.
In OCR’s 2020 Annual Report to the Secretary,
the President, and the Congress, OCR noted the grave
threats to non-discrimination that were the subject of
complaints regarding colleges and school districts
across the country. See U.S. DEP’T OF EDUC. OFFICE
FOR CIV. RIGHTS, ANNUAL REPORT TO THE SECRETARY,
THE PRESIDENT, AND THE CONGRESS 46 (January 2021)
https://www2.ed.gov/about/reports/annual/ocr/reportto-president-and-secretary-of-education-2020.pdf.

24
The 2020 Annual Report noted that
unfortunately, schools have justified their actions by
reference to diversity or equity in order to allegedly
engage in conduct that distinguishes students by race,
and compels students to act in specific ways, based on
their race. Specifically, the Annual Report states:
OCR is aware of concerning reports recently
that schools across the country are
discriminating on the basis of race in
different ways. Sometimes, these reports
have involved schools’ purported efforts to
promote diversity and equity among
students but are nevertheless prohibited
because they violate Title VI. OCR has
received complaints concerning the use of
race-exclusionary policies or practices in
schools. OCR has also opened investigations
involving such complaints, including two
directed investigations involving race
exclusionary practices. A few of those
investigations are briefly described below.
•

A teacher in a Chicago-area school
district filed a complaint with OCR
alleging
that
the
district
implemented a series of racial
“equity” policies and programs that
discriminated against staff, students,
and job applicants; implemented
certain policies and programs that
discriminate against staff, students,
and
job
applicants,
including
segregating staff and students into

25

•

•

affinity groups based on race; used
“Black Lives Matter” materials to
advocate to students that white
individuals bear collective guilt for
racism, police brutality, and other
social ills; and failed to discipline
some students appropriately by
allegedly
taking
race
into
consideration in its disciplinary
decisions.
OCR opened a directed investigation
based on reports that a university in
Kentucky segregated by race its
incoming resident assistants for
training purposes. As part of what
the
university
called
“White
Accountability Training,” resident
advisors who identified as white were
allegedly
given
training
on
“microaggressions”
and
“white
privilege,” while resident assistants
who identify as “black, indigenous,
[or] people of color,” were given
separate training.
OCR opened a directed investigation
to examine whether a university in
New York is discriminating on the
basis of race, color, or national origin
by offering and/or providing an
exemption from the requirement to
obtain vaccinations to students “who
identify as Black, Indigenous, or as a
Person of Color” based on their race,
color, or national origin.

26
OCR has concerns that using curricular or
training materials for students or staff
which are based on racial classifications or
stereotypes of individuals—solely based on
their race—may violate Title VI by
requiring school personnel to engage in
activities that result in the different
treatment of students based on their race, or
which constitute racial harassment. Such
policies or pedagogical practices that
perpetuate the idea that students may be
categorized by race, assigned a set of
characteristics, and be considered to possess
certain characteristics based on that race,
may subject students or staff to
discrimination in violation of Title VI.
Id. at 46.
Recently, a spokesperson for the Department of
Education publicly confirmed that, under Amici’s
tenure, OCR had previously opened an investigation
of a complaint against the Evanston/Skokie (IL)
school district under Title VI. See Carl Campanile,
US Dept. of Education curbs decision on race-based
‘affinity groups’, NEW YORK POST (Mar. 7, 2021),
https://nypost.com/2021/03/07/education-dept-curbsdecision-on-race-based-affinity-groups/
(“The
findings—reached during the waning days of former
President Trump’s time in office in early January—
were in response to a complaint about a Chicago-area
school district’s ‘racial equity’ training programs and
lesson plans.”). As reported by the New York Post:

27
The 18-page “letter of finding”—drafted by
federal DOE Office of Civil Rights
enforcement director Carol Ashley—was
triggered by a complaint filed by a former
NYC arts teacher who now works in the
Evanston-Skokie, Illinois. school district.
The DOE findings said the EvanstonSkokie School District violated civil rights
law by:
— Separating administrators in a
professional development training program
in August, 2019 into two groups based on
race — white and non-white.
— Offering various “racially exclusive
affinity groups” that separated students,
parents and community members by race.
— Implementing a disciplinary policy that
included “explicit direction” to staffers to
consider a student’s race when meting out
discipline.
— Carried out a “Colorism Privilege Walk”
that separated seventh and eight grade
students into different groups based on race.
“If you are white take 2 steps forward. If
you’re a person of color with dark skin, take
2 steps back. If you’re black, take 2 steps
back,” the privilege walk exercise said.

28
The goal was for white students to “learn
more about white privilege, internalized
dominance, microaggressions and how to act
as an ally for students of color,” the lesson
plan said.
But [Ashley] of the DOE concluded the
school district “engaged in intentional race
discrimination
by
coordinating
and
conducting racially exclusive affinity
groups, which resulted in the separation of
participants in district programs based on
race in violation of the Title 6 regulation.”
She said “deliberately” segregating students
and employees by race reduced them “to a
set of racial stereotype.”
“These materials would have led students to
be treated differently based on their race,
depriving them of a class free from racial
recrimination and hostility. Such treatment
has no place in federally-funded programs
or activities, nor is it protected by the First
Amendment,” Ashley said.
Id. A spokesperson for the Department of Education
also confirmed that the investigation into
Evanston/Skokie School District has been suspended,
“pending its reconsideration of the case in light of the
executive orders on racial equity issued by President
Biden.” See Houston Keene, Biden admin suspends
probe into school allegedly segregating students by
race; Rep. Owens blasts decision (Mar. 11, 2021),

29
https://www.foxnews.com/politics/biden-admineducation-department-racial-segregation-burgessowens. In other words, what Amici determined to be
race discrimination against teachers and students,
the Biden Administration instead found to be
potentially legal as a form of racial equity.
The fact of the matter is that the Supreme Court’s
caselaw in the area of race-conscious education policy
offers significant ambiguity to students and schools
throughout the country, so much so that depending on
the presidential administration in power, OCR will
offer diametrically opposed policy guidance, publicfacing statements, and even case findings implicating
a school’s receipt of federal funds.
It is one thing to see shifts in legislative or regulatory
changes, depending on who holds office. It is quite
another for Executive Branch agencies to interpret
the same cases to have wildly different results in the
context of race discrimination. Students and schools
can be forgiven for experiencing such policy
“whiplash,” but only the Court can address this
problem.
♦
CONCLUSION
For the foregoing reasons, this Court should
reverse the judgment of the Court of Appeals.

30
Respectfully submitted,
William E. Trachman
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(720) 640-8713
wtrachman@mslegal.org
March 31, 2021

Attorney for Amicus Curiae

